=>
I

C@OQCKLE

é E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1678

DANIEL Z. CROWE, LAWRENCE K. PETERSON,
AND OREGON CIVIL LIBERTIES ATTORNEYS,
AN OREGON NONPROFIT ASSOCIATION,
Petitioners,
v.
OREGON STATE BAR,
A PUBLIC CORPORATION, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
OF THE BUCKEYE INSTITUTE IN SUPPORT OF PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

4829 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 29th day of June, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY- fe wateriens. | of Nebraska A 2 4b I,
RENEE J. fe wateriens. | daw .

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 41123
